UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




       Division of Administration Pilot
       Employee Recognition Program

                 Report No. OIG-AMR-71-14-01




                                               January 6, 2014
                                              CONTENTS

EXECUTIVE SUMMARY ............................................................................ 1

BACKGROUND.......................................................................................... 2

OBJECTIVE, SCOPE, AND METHODOLOGY ............................................... 3

  Scope Limitation - Budgetary Controls .................................................. 4

FINDINGS ................................................................................................. 4

INTERNAL CONTROLS .............................................................................. 5

  Planning and Policies ............................................................................ 6
     Approval for the Performance Management System Pilot and Closeout
     Records .............................................................................................. 6
     Recommendation ............................................................................... 7
     OPM Approval of the Appraisal System .............................................. 7
     Recommendation ............................................................................... 9
     Documentation and Approval of the Pilot Awards Program’s Policy
     and Procedures .................................................................................. 9
  Application of Internal Controls .......................................................... 10
     Budgetary Controls and Segregation of Duties ................................ 10
     Recommendation ............................................................................. 14
     Eligibility for Awards ...................................................................... 14
     Nomination Forms ........................................................................... 14
     Gift Cards ........................................................................................ 17
     Premiums ......................................................................................... 19
     Performance Plans ........................................................................... 20
     Recommendation ............................................................................. 21
     Awards Based Upon Performance Ratings ....................................... 21

SPECIAL ACT AWARDS JUSTIFICATION ................................................. 22

TIMING OF THE AWARDS AND CEREMONIES ......................................... 24

STATISTICAL ANALYSIS ......................................................................... 27
 Distribution of Awards to Employees ................................................... 27
   Separated Employees....................................................................... 28
   Newly Hired Employees .................................................................... 29
   Transferred Employee...................................................................... 29
   Student Employees .......................................................................... 29
 Distribution of Awards by Grade .......................................................... 29
 Distribution of Awards by Branch ........................................................ 30
   Time Off Awards .............................................................................. 32
   Premium Awards.............................................................................. 33
   Gift Card Awards ............................................................................. 33
 Distribution of Awards by Employee Category ..................................... 34

APPENDIX

     Memorandum from the Deputy General Counsel, Response to Draft
     Report “Division of Administration Pilot Employee Recognition Program
     (OIG-AMR-71), dated December 30, 2013
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

We initiated this audit of the Division of Administration’s pilot Performance
Management System after we received complaints from a Division of
Administration manager alleging that the awards program was not properly
managed, in that awards were made without obtaining the proper approval.

We found that the pilot Performance Management System’s awards program
lacked the internal controls to detect and prevent waste and abuse. There are
no records for the approval of the pilot Performance Management System; the
policies and procedures were not fully documented, approved, or followed;
award items were misappropriated by staff; there was a lack of segregation of
duties; and Office of Personnel Management regulations were not followed. The
lack of internal controls resulted in gross mismanagement of the awards
process during the pilot program and $159,276.48 in questioned costs.

We also found that, in general, awards were not evenly distributed among the
Division of Administration branches, in that the employees in the Office of the
Director and the Budget and Human Resources Branches received, on average,
more cash and time off awards than employees in the other branches. When
we analyzed the timing of the cash and time off special act awards, we
determined that the pilot’s awards program did not meet its objective to shift
the emphasis from annual performance ratings-based awards to what was
described as a more fluid process in which achievements are recognized as they
occur. In fact, 89 percent of the special act awards occurred within 3 months
of the beginning or the end of the performance appraisal cycle.

Our report does not reach any particular findings regarding the cause of these
failures of the pilot Performance Management System because we cannot
determine with any degree of certainty whether it was the result of
incompetence or malfeasance. There are certainly elements of both detailed in
the report. We made five recommendations to correct issues that were
identified during the audit and need to be remedied.

The Agency commented that they agreed with the recommendations and
provided a description of the corrective action that has been implemented and
its plans for further action. Additionally, the Agency stated that the Office of
Human Resources has a dedicated newly-hired Human Resources Specialist
(Performance Management) to manage the Performance Management System
and Program and they are in the process of revising various performance
management policies and processes. The Office of Human Resources is also
developing tools and resources to ensure that all Agency employees have a
Performance Plan in place. The comments are attached as an appendix.
BACKGROUND

             Chapter 45 of title 5, United States Code, authorizes
             agencies to pay cash and grant time off as awards to, and
             incur necessary expenses for the honorary recognition of, an
             employee or a group of employees. Under that authority and
             the implementing Office of Personnel Management (OPM)
             regulations, the National Labor Relations Board (NLRB or
             Agency) created, and OPM approved, an Agencywide
             performance management system with performance ratings-
             based upon a five-tier appraisal system. The policies and
             guidance for that system were promulgated through its
             Administrative Policies and Procedures Manual (APPM)
             Chapter PER-17, "NLRB Performance Appraisal System for
             GS- 1 Through GS- 15 (General Schedule) and Prevailing
             Rate Employees" dated April 1, 2004, as well as APPM
             Chapter PER-4, "Employee Recognition Program," dated May
             19, 2011.

             In July 2011, the Division of Administration (DOA) began a 1
             year Performance Management System Pilot project to test a
             new Performance Management System. This pilot project
             covered all non-bargaining unit General Schedule (GS) and
             prevailing rate employees in DOA. The Performance
             Management System Pilot consisted of three components:
             Performance Planning and Appraisal; Awards and
             Recognition (Pilot Awards Program); and Training and
             Development. The stated purpose of the Pilot Awards
             Program was to honor and celebrate the noteworthy
             contributions by DOA employees throughout the year. It
             was DOA’s intention to shift the emphasis from annual
             performance ratings-based awards to what is described as a
             more fluid process in which achievements are recognized as
             they occur. The Pilot Awards Program offered four categories
             of awards: Branch level; Division level; Annual Division-wide
             special awards; and Performance awards. Additionally, the
             Performance Management System Pilot had a three-tier
             performance ratings system rather than the five-tier system
             that is utilized by the Agency.

             During the period of the Pilot Awards Program, DOA
             consisted of the Office of the Director of Administration;
             Acquisitions Management Branch; Budget Branch; Facilities
             and Properties Branch; Finance Branch; Human Resources
             Branch; Library and Administrative Services Branch; and


                                 2
             Security Branch. The Division had 119 non-Senior
             Executive Service (SES) employees, of which 23 were
             bargaining unit employees. Under the Pilot Awards Program,
             103 DOA employees received a total of $105,326 in cash
             awards, 857 hours of time off awards, 37 non-monetary
             awards (premiums), 16 gift cards, and 8 Quality Step
             Increases (QSI).


OBJECTIVE, SCOPE, AND METHODOLOGY

             The objectives of the audit are to determine:

             1.    Whether the Pilot Awards Program met the regulatory
                   requirements of an awards program;

             2.    If the written guidance implementing the Pilot Awards
                   Program was properly approved and followed;

             3.    Whether any internal controls in the written guidance
                   operated effectively;

             4.    The total amount of the awards and whether that was
                   within limits set by the Office of Management and
                   Budget and OPM;

             5.    The resources devoted to the implementation of the
                   Pilot Awards Program and award ceremonies; and

             6.    If any employees received disparate treatment.

             Our scope of this audit is the period that DOA conducted its
             Pilot Awards Program.

             We reviewed Governmentwide laws, regulations, and policy
             documents related to awards programs. We also reviewed
             Agency policies and procedures and interviewed personnel
             from the Office of Human Resources’ (formerly the Human
             Resources Branch) Performance Management Team to
             identify operating procedures. We offered the former
             Director, DOA, an opportunity to provide information, but
             she did not respond to our invitation. We compared the
             Agency policies and procedures with Code of Federal
             Regulations requirements, OPM policies, Government
             Accountability Office policies (GAO), and Office of
             Management and Budget policies.


                                  3
                We obtained documents related to the Pilot Awards Program
                from the beginning until the end of the program that were
                maintained by the Human Resources Branch. We also
                requested documentation related to the approval of the
                program from Agency officials. We reviewed the
                documentation related to the nomination, review, and
                approval process of awards awarded; the award recipient list;
                and the non-monetary award inventory list. We also
                reviewed personnel actions for cash and time off awards
                processed in the Federal Personnel/Payroll System (FPPS) for
                DOA employees during the period of the Pilot Awards
                Program.

                We tested the awards to determine whether the nomination,
                review, and approval process occurred according to the Pilot
                Awards Program’s guidelines. We evaluated whether the
                Pilot Awards Program had sufficient internal controls. We
                calculated the total award amounts. We analyzed the award
                amounts and trends for disparate treatment among
                employees and branches.

                We conducted this performance audit in accordance with
                generally accepted government auditing standards during
                the period October 2012 through October 2013. Those
                standards require that we plan and perform the audit to
                obtain sufficient, appropriate evidence to provide a
                reasonable basis for our findings and conclusions based on
                our audit objectives. We believe that the evidence obtained
                provides a reasonable basis for our findings and conclusions
                based on our audit objectives.

Scope Limitation - Budgetary Controls

                Neither the Budget Branch nor the Office of Human
                Resources was able to provide documentation supporting
                how the monetary amounts for the pools for the cash awards
                were calculated. Because of the lack of documentation, we
                could not determine if DOA properly calculated the awards
                pool or if it exceeded the limits set by OPM.


FINDINGS

                We found that the Pilot Awards Program lacked the internal
                controls to detect and prevent waste and abuse. The lack of
                internal controls resulted in gross mismanagement of the


                                    4
             DOA awards process during the Pilot Awards Program and
             $159,276.48 in questioned costs. The chart below
             summarizes the questioned costs findings.

             FY 2011
             Lack of Budgetary Authority                $37,901.00
             No Nomination Forms                         $1,346.72

             FY 2012
             No Nomination Forms                         $6,750.04
             Not approved – Branch Level                   $789.12
             Not properly approved – Division Level     $66,628.56
             Improper Ratings-based awards              $45,861.04

             We also found that, in general, awards were not evenly
             distributed among DOA employees, in that the employees in
             the Office of the Director and the Budget and Human
             Resources Branches received, on average, more cash and
             time off awards than employees in the other DOA branches.
             When we analyzed the timing of the cash and time off special
             act awards, we determined that the Pilot Awards Program
             did not meet its objective to shift the emphasis from annual
             performance ratings-based awards to what was described as
             a more fluid process in which achievements are recognized
             as they occur.


INTERNAL CONTROLS

             Many of our audit reports discuss internal controls and
             assess whether the Agency has controls in place and the
             degree to which it has achieved compliance with such
             controls. One reason for this focus is that a positive control
             environment is the foundation for a well-managed program
             and is essential to ensure the proper stewardship of taxpayer
             funds. There are many factors in a well-controlled
             environment, including integrity and ethical values
             maintained and demonstrated by management and staff;
             management’s commitment to competence; management’s
             philosophy and operating style; the organizational structure,
             including the delegation of authority and responsibilities;
             good human capital policies and practices; and oversight. To
             maintain a positive control environment, management
             engages in control activities that include the policies,
             procedures, techniques, and mechanisms that enforce
             management’s directives. The control activities should occur


                                   5
               at all levels of the Agency and include a wide range of
               activities, including approvals, authorizations, verification,
               reconciliation, reviews, and the creation and maintenance of
               records.

               From the initiation through the completion of the Pilot
               Awards Program, we found a program that lacked proper
               control activities. There are no records for the approval of
               the Pilot Awards Program; the policies and procedures were
               not fully documented, approved, or followed; award items
               were misappropriated by staff; there was a lack of
               segregation of duties; and the OPM regulations were not
               followed. We also determined that the lack of internal
               controls contributed to gross mismanagement of the Pilot
               Awards Program. The specific details of the individual
               findings are detailed below.

Planning and Policies

Approval for the Performance Management System Pilot and Closeout
Records

               Transactions, including approvals, should be promptly
               recorded to maintain their relevance and value to
               management in controlling operations and making decisions.
               Accurately and timely recording of transactions and events
               applies to the entire process or life cycle of a transaction or
               event from the initiation and authorization through its final
               classification in summary records. This documentation
               should be clear and readily available for inspection. All
               documentation should be properly managed and maintained.

               We found that there is no documentation of the Acting
               General Counsel’s approval of the Performance Management
               System Pilot. We were told that the Deputy Director, DOA,
               met with the Acting General Counsel to describe the
               Performance Management System Pilot and asserted to him
               that “everyone” was on board with it, but there are no notes
               of this meeting, the Acting General Counsel was not
               presented with a decisional memorandum or any briefing
               materials, nor is there any documentation of the Acting
               General Counsel’s decision. Without such documentation, it
               is not possible to determine the scope of the Performance
               Management System Pilot as it was presented to or approved
               by the Acting General Counsel.



                                    6
                  We found no summary or closeout records for the
                  Performance Management System Pilot. In response to our
                  information requests, three employees in the Office of
                  Human Resources provided documents, but those
                  documents combined do not provide a sufficient summary
                  record of the Performance Management System Pilot.
                  Although we were also able to locate and retrieve documents
                  and records from OCIO backups, we were not able to
                  ascertain whether we compiled all of the records for the
                  Performance Management System Pilot. This uncertainty is
                  in part because we observed that a number of computer files
                  and e-mail messages were deleted by former DOA
                  management officials upon their departure from the Agency.
                  We note that our efforts to complete this audit are not a
                  substitute for having summary or closeout records.

Recommendation

1.   We recommend that the Office of General Counsel develop a protocol for
     documenting the receipt, consideration, and approval of administrative
     policy decisions.

OPM Approval of the Appraisal System

                  An element of the Performance Management System Pilot
                  was that non-bargaining unit employees in DOA received
                  performance-based ratings on a three-tier appraisal system
                  rather than the Agency’s existing five-tier appraisal system.

                  The Agency’s five-tier appraisal system was approved by
                  OPM in 1986. In 1995, OPM amended its regulations to
                  allow agencies the flexibility of operating with multiple
                  appraisal systems. At that time, the Agency’s appraisal
                  system did not provide for any deviations from the rating of
                  an employee based upon the five tiers. Because there was
                  no preexisting flexibility in the Agency’s OPM-approved
                  appraisal system, the Agency was required, by 5 CFR
                  430.209, to request OPM’s approval of any subsequent
                  changes that modify the appraisal system. To facilitate those
                  types of requests, OPM created Form OPM 1631. Neither the
                  Agency nor OPM, however, has any records of the Agency
                  requesting the approval of a flexible appraisal system or to
                  otherwise deviate from the five-tier appraisal system that
                  was approved in 1986. Because of the lack of OPM approval,
                  the three-tier appraisal system was not a valid system of
                  appraising employees or making ratings-based awards.


                                       7
It is not apparent why the DOA failed to request approval
from OPM for the three-tier appraisal system. On October 6,
2011, approximately 3 months after the Performance
Management System Pilot began, the Director, DOA, was
asked, in an e-mail message from the Executive Assistant to
the Acting General Counsel, if OPM would approve a three-
tier appraisal system. The Executive Assistant to the Acting
General Counsel also stated that the Board attempted to
deviate from the five-tier system and was told that OPM
would not approve it. The Director, DOA, responded that
she had interviewed thousands of applicants over the years
and had seen every kind of appraisal system. The Director,
DOA, also noted that they had a contractor who previously
worked at OPM and had been responsible for performance
management systems and that he and other Human
Resources Branch staff researched that issue and assured
her that it was an appropriate system. We could find no
documentation of an attempt by the Director, DOA, to verify,
at that time, that OPM reviewed and approved the three-tier
performance appraisal system or to ascertain whether such
approval was necessary.

In December 2012, approximately 5 months after the
Performance Management System Pilot concluded, the Office
of Human Resources sought clarification from OPM
regarding the need for OPM’s approval of the three-tier
appraisal system. The clarification was sought at the
request of one of the Agency’s Special Counsels, who needed
documentation of OPM’s approval for an unrelated matter.
At that time, the Office of Human Resources contacted OPM
and was informed that the three-tier performance appraisal
system was not approved. The contractor who had
reportedly provided assurances that the three-tier
performance appraisal system was an appropriate appraisal
system was then contacted by the Office of Human
Resources and asked about the need for OPM’s approval. At
that time, the contractor responded that he agreed that OPM
should have approved the deviation from the Agency’s OPM-
approved five-tier appraisal system.

Given that the Director, DOA, was responsible for the
Human Resources Branch at that time, she was specifically
questioned about OPM’s approval of the three-tier appraisal
system, and the Agency was paying $112 per hour for a
contractor who was described as a former senior level OPM
official who was responsible for performance management


                    8
                  programs, the failure of DOA to follow OPM’s clearly stated
                  regulatory requirements represents gross mismanagement.

                  We find that the 8 QSIs and the 384 hours of time off awards
                  that were given as ratings-based performance awards under
                  the unauthorized three-tier performance appraisal system
                  were improper transactions that result in questioned costs.
                  The value of the improper QSIs, based on the difference in
                  pay for a period of a year, was $28,726, and the value of the
                  time off awards was $17,135.04, for total questioned costs of
                  $45,861.04.

                  During the exit conference, the Chief Human Capital Officer
                  stated that the Office of Human Resources has coordinated
                  with OPM to seek guidance on what if any corrections are
                  necessary to address the unauthorized rating system.

Recommendation

2.   We recommend that the Office of Human Resources follow the guidance
     provided by OPM in taking corrective action regarding the unauthorized
     ratings system.

     The Agency’s response to the Draft Report states that action on this
     recommendation has been completed.

Documentation and Approval of the Pilot Awards Program’s Policy and
Procedures

                  Although we were told that the Director, DOA, approved the
                  final version of the Pilot Awards Program’s policy and
                  procedures on September 14, 2011, in response to our
                  document request, we were not provided with documentation
                  of that approval other than a document circulated to DOA
                  managers and supervisors that the Director, DOA, described
                  as a “description of awards under the Employee Recognition
                  Program.” That document, however, did not cover all
                  aspects of the Pilot Awards Program and did not establish
                  written policies and procedures. We also found other
                  documents that were circulated between the Human
                  Resources Branch staff and the DOA management officials,
                  including documentation of review by the Director, but the
                  documentation lacked any evidence of approval. We
                  observed that the policy documents continued to be edited
                  through January 2012 - 6 months after the Pilot Awards
                  Program began.


                                       9
                Because of the lack of approval documentation, we reviewed
                what appears to be the latest policy and procedures that
                were circulated in September 2011, memorandums to the
                DOA’s managers and supervisors, and information that was
                posted on the NLRB’s Intranet Web site that provided notice
                to DOA personnel regarding the Pilot Awards Program. As
                discussed in the next section, we found that this
                documentation was not sufficient to provide for adequate
                internal control. Because of the lack of documentation, we
                cannot determine with any degree of reliability whether the
                Pilot Awards Program met OPM’s regulatory requirements.

Application of Internal Controls

Budgetary Controls and Segregation of Duties

                We found that DOA did not implement budgetary controls for
                the cash awards until July 12, 2012. At that time, the
                Director, DOA, sent an e-mail message to the Branch Chiefs
                directing them to provide information on the cash awards to
                a management official in her office so that the cash awards
                could be tracked and to ensure that DOA does not exceed its
                awards pool amount. This was 12 days after the Pilot
                Awards Program ended. By the time that the message was
                sent, $37,908 in FY 2012 cash awards had been processed
                in FPPS.

                We also determined that there was insufficient segregation of
                duties, in that the Director, DOA, had control over all
                aspects of the awards program. For five of the employees
                that received ratings-based awards, the Director, DOA, wrote
                the appraisal as the supervisor, reviewed the appraisal for
                technical accuracy as the Supervisory Review Board, and
                provided the final approval as the Performance Management
                Administrator. For the remaining 17 employees that
                received a ratings-based award, the Director, DOA, both
                reviewed the appraisal for technical accuracy as the
                Supervisory Review Board and approved the appraisal as the
                Performance Management Administrator. We are unaware of
                any reason why the Director, DOA, needed to retain such
                control of the ratings-based awards. For the other divisions
                that are under the Office of the General Counsel, these key
                duties are divided between the division and the Office of the
                General Counsel.




                                    10
There were also segregation of duties issues with DOA’s use
of FY 2011 awards pool funds to award $37,901 in
individual and group special act cash awards after the Pilot
Awards Program began. According to the Agency’s APPM
chapter on awards, the awards pools are authorized and
funded in an amount that is determined by the Board and
General Counsel. For FY 2011, the awards pools were
available only for ratings-based performance awards. The
Director, DOA, should have been aware that the Agency’s
awards program restricted the awards pool funds (referred to
as PMS and PMRS Pools) to ratings-based awards because
she signed the memorandum, dated December 13, 2010,
setting out that restriction. The Director, DOA, should have
also been aware of the Agency’s APPM’s provision that stated
the limitations on the use of the PMS and PMRS Pools
because that chapter is issued and maintained by DOA.
Also the Director, DOA, stated in an e-mail message dated
September 11, 2011, to the Deputy Director:

      One thing that I noticed in the APPM which I
      hope will not cause trouble is that there is a
      limit of $1,000 on special act awards at the
      division level. However, that is contained in an
      APPM that specifically calls for separate pools of
      money for different types of awards, e.g.,
      performance, special act, on the spot, etc. The
      folks who drafted the APPM clearly envisioned
      not having to use their performance award
      money for special acts, etc., and envisioned
      having yet more money to have those awards in
      addition to performance awards. We, of course,
      are using special acts in lieu of performance
      awards and that was the basis for our pitch to
      [the Acting General Counsel], so I do not see a
      conflict. It would be ironic indeed if every other
      division is giving out $3,000 performance
      awards AND $1,000 special act awards without
      having to go to the GC for approval, but we
      would have to go to the GC for every special act
      award that exceeds $1,000 and is in lieu of a
      performance award

In the notice about the Pilot Awards Program that was sent
to the supervisors and managers on September 23, 2011,
the Director, DOA, stated that:



                    11
      I have decided to use the remaining FY 11
      awards funds for the initial awards under the
      Employee Recognition Program. . . . Fortunately,
      because of the availability of a modest amount of
      remaining FY11 awards money and the fact that
      the pilot employee recognition program
      emphasizes the ongoing recognition of
      employees’ contributions in a variety of ways, we
      are provided with a special opportunity to get
      the Division’s Employee Recognition Program off
      to a strong start.

Our review of the FPPS records found that, prior to the
September 23, 2011, notice to the DOA managers and
supervisors, 53 special act awards were given to DOA
employees that were not processed in accordance with the
Pilot Awards Program’s procedures. The 53 special act
awards included 51 cash and 2 time off awards. The cash
awards totaled $37,151, and the time off awards totaled 16
hours. We included these awards as part of the Pilot Awards
Program because the awards were processed in FPPS during
the time period of the Pilot Awards Program. Also, but for
the Pilot Awards Program, 10 of the 51 cash awards were in
an amount that would have exceeded DOA’s approval
authority under the APPM and we were told by an Office of
Human Resources official who was responsible for the Pilot
Awards Program that all the awards beginning July 1, 2011,
were under the Pilot Awards Program.

We were unable to find records to document the Board’s or
Acting General Counsel’s approval of the use of FY 2011
PMS and PMRS awards pools for special act, group awards,
or as part of the Pilot Awards Program. Without that
approval, the use of FY 2011 awards pools for the special act
and group cash awards was gross mismanagement
evidenced by a wanton disregard for the authority of the
Office of the General Counsel and the Board and was an
ultra vires act by the Director, DOA. As such, the $37,151 in
special act cash awards that were given between July 1,
2011 and September 23, 2011 (the time before the Pilot
Awards Program was announced to DOA managers), and the
$750 in special act cash awards that were given to DOA
employees between September 24, 2011 and September 30,
2011, are questioned costs.




                    12
In addition to the issue of the authority to use the FY 2011
PMS and PMRS awards pools, the Director, DOA, appears to
have given a group cash award of $500 to all but two
employees in the Human Resources Branch to boost morale
rather than to reward the employees’ performance. The total
amount for the 26 award recipients was $13,000. A review
of the Human Resources Branch’s documentation found that
the group award was based on “Teamwork as New HR” and
that there was no documentation supporting why the
employees involved in the “New HR” had done anything to
merit the award. We did find, however, a January 2012 e-
mail message between the Director, DOA, and Deputy
Director, DOA, in which the Director stated, in a proposal to
rebut criticism of their management style:

      I was also thinking of gathering relevant
      documents re the pilot and our telework
      activities as well as the awards sheet that shows
      the payouts. What is really ridiculous is that
      we paid out money to people to whom we
      would not have ordinarily done so (primarily
      in HR) just to boost morale – people who had
      been here less than a year, in addition to the
      $500k for everyone for the New HR. (Errors
      are in the original) (Emphasis added)

There is no authority to grant an award to an employee, or a
group of employees, to boost morale. The statutory and
regulatory authority for awards to GS level employees is
limited to rewarding the following:

(1)   A suggestion, invention, superior accomplishment,
      productivity gain, or other personal effort that
      contributes to the efficiency, economy, or other
      improvement of Government operations or achieves a
      significant reduction in paperwork;

(2)   A special act or service in the public interest in
      connection with or related to official employment; or

(3)   Performance as reflected in the employee’s most recent
      rating of record, provided that the rating of record is at
      the fully successful level (or equivalent) or above.

Segregating the duties of processing the awards, as is the
case for the other divisions of the Office of the General


                    13
                 Counsel, would minimize the risk of abuse of discretion that
                 occurred with the use of the DOA’s FY 2011 PMS and PMRS
                 awards pool funds.

Recommendation

3.   We recommend that DOA’s Performance Management Administrator be an
     official in the Office of General Counsel.

Eligibility for Awards

                 We found that the information regarding eligibility for
                 awards under the Pilot Awards Program was contradictory.
                 A memorandum from the Director, DOA, to the Branch
                 Chiefs in September 2011, stated that the Pilot Awards
                 Program was primarily for non-bargaining unit employees,
                 but that bargaining unit employees were eligible for
                 recognition under the Pilot Awards Program. In contrast, the
                 information about the Pilot Awards Program that was placed
                 on the Agency’s Intranet site to explain the program to DOA
                 employees stated that all GS and prevailing rate employees
                 in DOA who were not in the bargaining unit were covered by
                 the Pilot Awards Program and that there were approximately
                 75 of those employees. The training material also stated that
                 the Pilot Awards Program was for non-bargaining unit
                 employees. When we interviewed Office of Human
                 Resources’ staff, they explained that bargaining unit
                 employees and student employees could receive premiums
                 and gift cards, but not monetary awards. Our review of the
                 FPPS records found that both bargaining unit employees and
                 students received cash and time off awards in addition to the
                 gift cards and premiums.

                         Student Employees      Bargaining Unit Employees
 Award Type               Receiving Awards          Receiving Awards
 Cash                             1                         17
 Time Off                       1                           12
 Gift Card                      1                            1
 Premium                        0                            2

Nomination Forms

                 The Pilot Awards Program categorized awards as either
                 Branch or Division level awards. The Branch level awards


                                      14
                 could be up to $250 or 8 hours time off. Except for the
                 ratings-based awards, the Pilot Awards Program required
                 that all awards be processed by a nomination form.

                 The Pilot Awards Program ran from July 1, 2011 to June 30,
                 2012. Based upon the records in FPPS, we determined that
                 there were 179 cash and time off awards that should have
                 been processed via a nomination form. Those awards were
                 comprised of 69 Branch level and 110 Division level awards.
                 For the Branch level awards, 41 were time off awards and 28
                 were cash awards. For the Division level awards, 9 were
                 time off awards and 101 were cash awards.

                 The Office of Human Resources provided the OIG with copies
                 of 133 nomination forms. Our review of the nomination
                 forms found that a nomination form could be used to
                 nominate a single employee or a group of employees. We
                 observed that nomination forms were also used to nominate
                 employees for premium and gift card awards.

                 We found that there were 71 nomination forms for cash and
                 time off awards. We compared those forms to the FPPS
                 records. The chart provides the distribution of the FPPS
                 awards by type and whether there was a nomination form.

                                Cash             Time Off           Total
                             Amount No.        Amount    No.    No. of Awards
Awards processed with
nomination forms             $64,350      71    345 hrs   35         106
Awards processed without
nomination forms             $40,976      58    128 hrs   15          73

                 Because the justifications for the awards without nomination
                 forms were not documented, those awards are questioned
                 costs. Of the $40,976 in cash awards processed without a
                 nomination form, $37,651 were previously found to be
                 questioned costs because of the improper use of FY 2011
                 funds for those awards. The remaining $3,325 are
                 additional questioned costs of FY 2012 funds. The amount
                 of questioned costs for the time off awards is $4,771.76. The
                 total questioned costs that are related solely to the lack of a
                 nomination form are $8,096.76.

                 We also determined that only 29 of the 71 nomination forms
                 for cash and time off special act awards were processed in



                                     15
       accordance with the procedures that were stated on the
       nomination form.

       For the Branch level awards, the Branch Chief was the
       approval authority. The supervisor’s concurrence was also
       necessary if the award was nominated by someone other
       than a supervisor or Branch Chief. We found that for the
       Branch level award to employees, two nomination forms that
       were initiated by a supervisor did not have documentation of
       the Branch Chief’s approval and one nomination form did
       not have documentation of either the supervisor’s
       concurrence or the Branch Chief’s approval. Because of the
       lack of the Branch Chief’s approval, these three awards are
       questioned costs. The amount of the questioned costs is
       $789.12.

       The Division level awards required concurrence by the
       Branch Chief and review and approval by a review panel,
       composed of three DOA managers, and the Director, DOA.
       Based upon our review of the nomination forms for the
       Division level cash and time off awards, we determined that
       none of the Division awards were properly processed.
       Therefore, all of the Division level awards are questioned
       costs. The amount of the questioned costs for the Division
       level awards is $66,628.56. The chart below provides the
       number of discrepancies that we found.

Total Division level awards                        60
Review panel approval not documented                7
Disapproved by review panel, but awarded            1
Concurrence by Branch Chief not documented         15
Approval by Director not documented                59

       We also found that the review panel’s recommendations were
       not followed for 21 Division Level awards – 10 cash awards
       were in an amount that was lower, 4 were in an amount that
       was higher, and 7 time-off awards were converted to egg-
       shaped crystals. We could not find any documentation that
       explained why the review panel’s recommendation was not
       followed or who approved the deviation from the
       recommendation. We also found that the review panel
       approved two awards for employees but neither the
       nomination form nor the review panel’s recommendation
       listed the award. The two employees each received a pen set.


                              16
                   In addition to the issues of the lack of proper documentation
                   supporting the awards, we determined that one panel
                   member, now a former employee, signed as a reviewing
                   official on his or her own award, an apparent violation of the
                   Office of Government Ethics regulations. We also found that
                   the former Deputy Director, DOA, submitted four nomination
                   forms after she left the Agency. Three of those nominations
                   were then processed and approved.

                   We also reviewed all nomination forms to determine whether
                   the nomination was initiated by an appropriate nominating
                   official and whether that official signed the form. The chart
                   below details our findings.

                                                            Cannot
                                               Yes   No    Determine     Total
  Nominated by the Appropriate Official        127    5        1          133
  Signed by the Nominating Official            120   13        0          133

                   In addition to the nomination forms not being completed
                   properly, we found that 15 nomination forms were not
                   processed at all. The chart below shows the distribution, by
                   branch, of the unprocessed nomination forms.

                    Branch                                     Total
                    Acquisitions Management                      1
                    Facilities and Property                      5
                    Finance                                      2
                    Human Resources                              1
                    Library and Administrative Services          6

Gift Cards

                   There was a lack of control over gift card awards. There was
                   no documentation of the approval to acquire the gift cards;
                   there was no guidance in any written documentation that
                   created a segregation of duties between acquiring,
                   maintaining, issuing, and reconciling the gift card inventory;
                   there were no written procedures for safeguarding the gift
                   cards against theft or loss; and there were no procedures for
                   obtaining acknowledgement by an employee that he or she
                   received a gift card as an award.

                   The gift cards were purchased at a local drugstore with a
                   purchase card by the employee who was responsible for


                                          17
                    maintaining the inventory of gift cards. We could find no
                    records that the transaction was reviewed by the employee’s
                    supervisor or manager, as required by the Agency’s purchase
                    card procedures. After we observed that the purchase of gift
                    cards was split into two transactions within minutes of each
                    other, we requested that the drugstore’s legal department
                    review the transaction. They noted that there was a 10 card
                    per transaction limit and that a customer would be
                    prevented from purchasing 18 gift cards in one transaction.

                    The controls that were in place, a tracking log and
                    nomination forms, could not be reconciled against one
                    another. We observed that the draft of the gift card tracking
                    log that was provided to the Executive Assistant to the
                    Acting General Counsel had spaces to collect information
                    regarding the date that the card was issued and a signature
                    by the Branch Chief or Supervisor who awarded the card.
                    That draft log, however, was not used and the log sheet that
                    was used did not collect that information. When we
                    compared the gift card log to a document that was titled
                    “Final Awards List,” we observed that the names could not
                    be reconciled. We also found that the recipients listed on
                    Final Awards List and the gift card log could not be
                    reconciled with the nomination forms. Based on the
                    information in the documents, it appeared that, although 18
                    gift cards were purchased, 25 gift cards were awarded and 1
                    was missing.

                    To address these discrepancies, we contacted the employees
                    who were identified as receiving a gift card and asked the
                    employee if he or she recalled receiving a gift card. By doing
                    so, we verified that 15 gift cards were awarded and 2 gift
                    cards were missing. One employee did not respond. The
                    table below details our findings.

                                                       Did not   No
Type of Record                              Received   Receive   Response   Total
Employee listed as receiving on both Gift
                                                 8        2          1        11
Card Log and Final Award list
Employee listed only on the Gift Card
                                                 4        2          0         6
Log
Employee listed only on Final Award List         0        5          0         5
Employee on Nomination form, but not
                                                 3        0          0         3
on any log or list




                                            18
           Although DOA was instructed by Agency counsel that the
           employees who receive gift cards are responsible for the tax
           obligations, we found that there were no procedures for
           reporting the issuance of a gift card award to the Finance
           Branch so that the income would be reported, along with the
           employee’s other earnings, to the Internal Revenue Service
           and taxes withheld, in accordance with its regulations.

Premiums

           We observed that, during the Pilot Awards Program, DOA
           employees received non-monetary awards, including star
           paper weights, egg-shaped crystals, and pen sets. We refer
           to these types of awards as “premiums.” The documentation
           for the Pilot Awards Program was silent on the criteria for
           making such awards or any internal controls related to
           premiums as an award. The records that were provided to
           us that were related to the premium awards were the Final
           Awards List, the nomination forms, and a memorandum
           addressed to a trophy shop that purports to be an order for
           the premiums. We found no records indicating that there
           was any attempt to maintain control over the inventory of
           the premiums or the approval of the amount to be spent on
           them.

           When we compared the nomination forms to the Final
           Awards List, we determined that each of the awards on the
           list had a corresponding nomination form. We also found,
           however, that two premium awards with nomination forms
           were not on the Final Awards List, and that nine premium
           awards were given to employees without a nomination form.
           Using this information, we determined the number of
           premium awards that DOA should have had on hand and
           conducted an inventory. The chart below details our
           findings.




                              19
                                                           Found during Found during
                              Premiums on       Found     OIG Inventory OIG Inventory
                              Final Awards    During OIG       with       with Employee
                                List and     Inventory in Employees who who did not
                               Nomination      Agency      Received it as Receive it as
   Premium       Purchased       Forms         Storage       an Award        an Award     Missing
Egg-shaped
                    30            13                7           3              0            7
Crystals
Gold Star           10             6                1           2              1            0
Desk Pen Set        15             2                0           6              2            5
Polished Metal
                    1              0                0           0              0            1
Gold Tone Star
Total               56            21                8           11             3            13


                         For the awards that were found with employees who did not
                         receive it as an award, one of the pen sets was taken by an
                         employee and used in the office after the pilot program
                         ended, and another pen set was found on the desk of a
                         former employee who was not listed as receiving it as an
                         award.

                         As part of our inventory, we made several requests to the
                         DOA’s current Branch Chiefs to look for any premiums that
                         were not awarded and had been stored in the office space of
                         the branch. The purpose of these requests was to ensure
                         that we had exhausted all means of locating the missing
                         premiums. During that process we were informed that a
                         gold star that had been taken by a former employee as an
                         example of a premium award was returned and had been
                         placed back with the remaining inventory of premiums. We
                         also learned that the former employee did not notify anyone
                         other than a subordinate that the premium was being taken.
                         In total, the value of the missing premium awards is
                         $686.60.

   Performance Plans

                         Employees are required to have a performance plan and
                         employees cannot be appraised unless they have been
                         provided with a properly executed performance plan. OPM
                         regulations state that normally the performance plan should
                         be provided to the employee within 30 days of the beginning
                         of the appraisal period. An appraisal is then based upon the
                         employee’s actual performance as measured against the
                         performance plan.




                                               20
                   For the 119 non-SES employees in DOA during the
                   Performance Management System Pilot, we found that 65
                   had properly completed performance plans. We also found
                   that there was no performance plan for 29 employees. That
                   group of employees included 20 employees who should have
                   received a performance appraisal during the period of the
                   pilot and 9 employees who would not have received a
                   performance appraisal during the pilot (8 students and one
                   employee who separated 2 days after the pilot began). For
                   the remaining 25 employees, the performance plans were not
                   properly executed.

                   The chart below provides the detailed information:

                                    Bargaining Unit    Non-Bargaining
                                    Employees          Unit Employees    Total
 Not signed by Employee                     2                  0            2
 Not signed by Reviewing Official
                                            3                  5            8
 and/or Appraising Official
 Not signed by all three                    14                 1           15

 Total                                      19                 6           25


Recommendation

4.   We recommend that the Office of Human Resources review its records and
     ensure that all employees have a properly executed performance plan.

Awards Based Upon Performance Ratings

                   While conducting this testing, we found that the Office of
                   Human Resources had not properly maintained copies of
                   DOA employee appraisals for the time during the
                   Performance Management System Pilot. To conduct our
                   testing, we retrieved the appraisals from the forms
                   processing system that was used to process the appraisal
                   forms.

                   Under the Performance Management System Pilot, an
                   employee must have had a rating of “Exceptional
                   Contribution” to be eligible to receive a ratings-based award.
                   Our review of FPPS records found that 8 QSIs and 14 time
                   off awards totaling 384 hours were given as ratings-based
                   awards. The employees who received the QSIs were all rated


                                       21
             “Exceptional Contribution.” For the time off ratings-based
             awards, only 9 of the 14 employees received a rating of
             “Exceptional Contribution.” After the pilot ended, one of the
             employees who received a time off award was given a
             corrected appraisal that changed the rating from “Valuable
             Contribution” to “Exceptional Contribution.”


SPECIAL ACT AWARDS JUSTIFICATION

             As stated above, the statutory criteria for a special act award
             provides that the Agency may give an award to an employee
             who “performs a special act or service in the public interest
             in connection with or relation to his official employment.”
             The guidance for the Pilot Awards Program states that a
             special act award is “based on a significant non-recurring
             contribution which may be within or outside of normal job
             responsibilities; a significant achievement; or act of
             heroism.”

             During the Pilot Awards Program, there were 110 Division
             level special act awards, 101 of which were cash awards and
             9 were time off awards.

             We question the appropriateness of 42 special act awards
             that were made during the period of the Pilot Awards
             Program. For six special act awards, totaling $6,088, there
             was no documentation stating what special act the employee
             performed. Without that documentation, there is no basis to
             make the award and the award is considered a questioned
             cost. (The amount of these questioned costs is included in
             the category of questioned costs for the Division level awards
             that lacked documentation of proper approval.) For the
             remaining 36 special act awards we determined that the
             approving official abused his or her discretion in making the
             award. The following is the basis for our determination:

             •     All but two Human Resources Branch employees
                   received a $500 special act award for what was
                   described as “Teamwork as New HR.” In addition to
                   the abuse of discretion in using award funds to boost
                   morale rather than to reward a special act, as
                   discussed above, the awards were made only 3 months
                   after the New HR initiative started. In other words, 26
                   employees in DOA’s largest branch were given an



                                 22
    award for performing their official duties better in a
    program that had not been in place long enough to
    evaluate whether it was successful;

•   A Branch Chief received a $1,500 special act award in
    August 2011 for “work on preparation for the
    appropriation hearing in April 2011.” The hearing
    was in the 2011 appraisal period and was
    approximately 3 months prior to the initiation of the
    Pilot Awards Program. The Branch Chief also received
    a QSI for the work that was completed in the 2011
    appraisal period. There is nothing in the awards
    justification to indicate that the preparation for the
    hearing was any different from prior years’
    preparation. Nothing in the documentation makes it
    apparent that the work by the Branch Chief was a
    “significant non-recurring contribution;”

•   An employee in the Director’s Office received a $1,500
    special act award in August 2011 for work that was
    described as “ensuring fulfillment of executive orders
    and leading the preparation of reports.” The employee
    then received a $2,500 special act award in May 2012
    for “assuming the responsibility for the analysis and
    response to all executive orders and other initiatives
    and requirements emanating from the White House
    and other external sources.” It is not clear how the
    employee could have assumed duties in 2012 that the
    employee also performed in 2011. Also, because the
    acts are the same and are ongoing, they appear to not
    meet the requirement of being a “significant non-
    recurring contribution;”

•   In August 2011, a Branch Chief received a $1,500
    special act award “in recognition of implementing
    electronic processes and systems” for the Branch. In
    May 2012, the Branch Chief received a second special
    act award for $2,500. The justification for the second
    award was written in a manner that makes it appear
    that the implementation of electronic processes and
    systems was the primary basis for the award. As
    such, the Branch Chief appears to have received two
    awards for performing same act and the award cannot
    meet the requirement of being a “significant non-
    recurring contribution;”


                  23
             •    A Human Resources Branch employee received a
                  $1,500 special act award. The justification was for
                  “Transit IG Work.” There is no further documentation
                  explaining what the employee did. Our knowledge of
                  this employee’s work was that the employee read a
                  draft inspection report and contacted the auditor to
                  ask questions about the inspection report before it was
                  issued in final. This work also occurred during the
                  2011 appraisal period;

             •    Two employees in the Budget Branch received special
                  act awards totaling $3,500 for performing their normal
                  and recurring duties. One received a $1,500 award
                  because the employee “did a particularly good job
                  executing the budgets for [his or her] accounts,
                  particularly in projecting the salaries and benefits.”
                  The other received $2,000 because the employee was
                  “instrumental in conducting the 3rd quarter budget
                  reviews of [his or her] accounts.” Based on these
                  descriptions, they do not meet the requirement of
                  being a “significant non-recurring contribution;”

             •    A Security Branch employee received a $625 special
                  act award. The justification was for “performance as
                  personnel security specialist;” and

             •    An employee in the Acquisitions Management Branch
                  received a time off award of 9 hours for his or her
                  “interactions with customers” and being “the face of
                  the Purchase Card program.”


TIMING OF THE AWARDS AND CEREMONIES

             One of the stated purposes of the Pilot Awards Program was
             to reward employees’ performance throughout the year and
             to make a shift away from the annual rating-based awards at
             the end of performance review cycle. The Pilot Awards
             Program was intended to be a fluid process that would honor
             and celebrate the noteworthy contributions by DOA
             employees throughout the year.

             The Pilot Awards Program was also intended to publicly
             acknowledge employee performance through a series of
             award ceremonies. To effectuate that purpose, award


                                24
               ceremonies were conducted at the end of each quarter of the
               Pilot Awards Program. Three of the ceremonies were
               identified by the quarter of the fiscal year that they related to
               and the last award ceremony was identified as the “final
               awards ceremony.”

               To determine if the Pilot Awards Program met its objective of
               distributing the awards throughout the year, we analyzed
               the distribution of the special act awards throughout the
               Pilot Awards Program. Because we had found that the
               nomination forms and awards lists were not reliable, we
               relied upon the effective date for the award that was
               documented in FPPS to determine when the award was
               made. The chart below shows the distribution of awards by
               quarter:

                                                     Number of Awards
                   Ceremony
                                                     Processed in FPPS
Fourth Quarter (July through September 2011)                61
First Quarter (October through December 2011)                 4
Second Quarter (January through March 2012)                   15
Final Awards Ceremony (April through June 2012)               99

               We also observed that a number of premium and gift card
               awards were given to DOA employees from October 2011
               through June 2012. We cannot, however, rely on the
               records that have been provided to the OIG to determine the
               rate or frequency of those awards.

               Although there appears to be two large groups of special act
               awards, one at the beginning and one at the end of the
               program, further examination of the distribution of the
               awards shows that the Pilot Awards Program failed to meet
               the objective of providing recognition of worthy performance
               throughout the program. For the first group of awards, July
               through September 2011, 53 awards (51 cash and 2 time off)
               were processed prior to the announcement of the Pilot
               Awards Program to the DOA employees and included
               justifications based on acts occurring in the prior
               performance period. As discussed earlier, those awards did
               not go through the nomination and review process, and it
               also appears that those awards were never intended to be
               acknowledged as part of the Pilot Awards Program. If those
               awards are excluded from the distribution, 21 percent of the


                                    25
awards were made during the first three quarters of the Pilot
Awards Program and 79 percent of the awards were made
during the final quarter. If the 53 awards are included in the
analysis, then 89 percent of the awards that were made
during the Pilot Awards Program occurred within 3 months
of the beginning or the end of a performance appraisal cycle.
Further analysis of the awards made during the final quarter
showed that 60 percent of those awards were effective after
the Pilot Award Program ended. Overall, it appears that
there were relatively few special act awards to be announced
or presented during the first three award ceremonies, as
compared to the final awards ceremony that coincided with
the end of the performance cycle.

The statute authorizing awards for employees has been
interpreted to also authorize the use of appropriated funds
for award ceremonies as a “necessary expense for the
honorary recognition of” the employee who receives an
award. The necessary expenses may include refreshments
for the ceremony’s attendees. GAO decisions, however,
emphasize that the purpose of the ceremony is to foster
public recognition of the employees, rather than provide food
to the award recipients. For the first three ceremonies, we
were unable to find any records that document the use of
appropriated funds for refreshments. Although it appears
that there was a modest amount of refreshments at the
ceremonies, the e-mail messages that were provided to the
OIG in response to the document requests show that the
Director, DOA, personally reimbursed DOA employees who
had used their personal funds to buy the refreshments. For
the final awards ceremony, we found documentation that
DOA used $902.74 in appropriated funds to purchase
refreshments. We found that this amount is well within the
guidelines that are discussed in the GAO decisions. It also
appears that the program itself was designed to encourage
attendance at the presentation of the awards, rather than
just at the refreshment part of the ceremony.

We also observed that the Director, DOA, played an integral
role in planning the details of the awards ceremony. From
the seating plan, to the theme music for the presenters, to
what the student interns would wear as ushers, the Director,
DOA, managed what was to be done. Also, except for the
absence of Agency criteria and the lack of approval by the
Office of the General Counsel for the use of appropriated
funds for the final awards ceremony, the planning of the


                    26
                   final awards ceremony was well-documented and the
                   documentation was available for our review as part of the
                   audit process. While we do not question whether the final
                   awards ceremony was a proper use of appropriated funds or
                   the role of the Director, DOA, in the planning and execution
                   of the ceremony, we note it in contrast to the lack of
                   documentation and control in the planning and execution of
                   the Performance Management System Pilot.

Recommendation

5. We recommend that the Office of Human Resources establish criteria for
   when appropriated funds may be used for award ceremonies and that the
   criteria include a means to determine the amount of funds that may be
   used.


STATISTICAL ANALYSIS

                   We reviewed the nominations and awards to determine a
                   variety of statistics to show the distribution of the non-
                   ratings-based awards and to determine if there was any
                   disparate impact. For the purpose of this analysis, we
                   included all of the non-ratings-based awards given to DOA
                   employees.

Distribution of Awards to Employees

                   During the period of the Pilot Awards Programs, DOA had
                   119 non-SES employees. Those employees can be grouped
                   in the following categories:

Employee Status                       Bargaining   Non-Bargaining    Total
Employed During Entire Pilot Period       22             60              82
Separated                                   0             16             16
Hired                                       1              8              9
Hired and then Separated                    0              1              1
Transferred                                 0              1              1
Students                                    0              8              8
Student to Pathways                         0              2              2

                   The employees in DOA received a total of 234 non-ratings-
                   based awards. The distribution of the awards is shown in
                   the following tables.


                                       27
                                       Number of
                                         Award        Number of         Award
 Award Type                            Recipients      Awards          Amount
 Cash Awards                               84           129              $105,326
 Time Off Awards                           42            50               473 hrs
 Premiums                                  26            37                    37
 Gift Cards                                14            16                    16
 Spotlight (All Aboard Article)             2             2                     2

                                                           More than
                            One       Two       Three      Three
                            Award     Awards    Awards     Awards        Total
 Number of Employees        40        27        14         21            102

                    We noted the following observations:

                    •      Fifty-three employees received awards in multiple
                           quarters;

                    •      Thirty-six employees received multiple awards in the
                           same quarter;

                    •      Two employees received only a gift card as an award –
                           both in the same branch;

                    •      Three employees, including one Branch Chief, received
                           only a premium as an award; and

                    •      Three of the 17 employees who did not receive an
                           award worked for the entire period of the Pilot Awards
                           Program. One of the 3 employees received a ratings-
                           based award.

Separated Employees

                    Ten of the employees who separated during the Pilot Awards
                    Program received an award and seven did not. The table
                    below shows the length of time that the separated employees
                    worked during the Pilot Awards Program as compared to
                    receiving an award:




                                         28
                             Less    Between        Between   Between    Between       More
                           than 30    30-90          90-120   120-180    180-270     than 270
                            Days      Days            Days     Days       Days         Days
Received Award                 0           0          0         1          4            5
Did Not Receive Award          2           0           2         1         1            1


                      We noted that 8 of the 10 separated employees who received
                      an award during the Pilot Awards Program were from the
                      Human Resources Branch, and one of those employees
                      received an 8 hour time off award 10 days prior to
                      separating.

Newly Hired Employees

                      Each of the nine employees who were hired during the Pilot
                      Awards Program received an award. The table below shows
                      the length of time the newly hired employee served prior to
                      receiving the award:

                                     Within         Within      Within      Within       More
                        Less than    30-90          90-120     120-180     180-270     than 270
                         30 Days      Days           Days        Days        Days        Days
Number of Employees        0           3              2              1         2            1


Transferred Employee

                      One employee who transferred from DOA to another division
                      worked for almost 9 months in DOA during the Pilot Awards
                      Program. The transferred employee did not receive an
                      award.

Student Employees

                      Two students received awards. One student received a
                      special act cash award and a gift card. The other student
                      received a special act award of 8 hours time off. The
                      remaining six students did not receive any awards.

Distribution of Awards by Grade

                      We generally found that employees in the grades of GS-11
                      and below were on average more likely to receive a cash or
                      time off award, but the average amount of the awards was
                      generally smaller than for the higher grades.


                                               29
                        GS-11 and below -- 56 Employees During the Pilot Awards Program
                             Percent of                                    Percent     Average
                             GS-11 and      Total   Percent      Total     of Total     Award
                 Number of   below who    Number    of Total    Amount     Amount      Amount
                   Award      Received       of     Number         of         of         per
Type of Award    Recipients   an Award     Awards  of Awards    Awards      Awards    Recipient
Cash ($)             39          46          52        40         23,722         23      608.26
Time Off (Hrs)      27           64          28         56           221         47        8.19
Premiums            12           46          17         46
Gift Cards           2           14          2          13




                         GS-12 & GS-13 -- 33 Employees During the Pilot Awards Program
                             Percent of                                    Percent    Average
                              GS 12-13     Total    Percent      Total     of Total    Award
                 Number of      who       Number      Total     Amount     Amount     Amount
                   Award      Received       of     Number         of         of         per
Type of Award    Recipients   an Award    Awards   of Awards    Awards     Awards    Recipient
Cash ($)             25          30         40         31         35,204         33    1,408.16
Time Off (Hrs)      10           24         16          32           156         33       15.60
Premiums             5           19          8          22
Gift Cards           9           64         11          69




                         GS-14 & GS-15 -- 30 Employees During the Pilot Awards Program
                             Percent of                                    Percent    Average
                              GS 14-15     Total    Percent      Total     of Total    Award
                 Number of      who       Number      Total     Amount     Amount     Amount
                   Award      Received      of      Number         of         of         per
Type of Award    Recipients   an Award    Awards   of Awards    Awards     Awards    Recipient
Cash ($)             20          24         37         29         46,400         44    2,320.00
Time Off (Hrs)       5           12          6          12            96         20       19.20
Premiums             9           35         12          32
Gift Cards           3           21          3          19


Distribution of Awards by Branch

                     We conducted additional analysis to determine how the
                     distribution of awards compared to the distribution of
                     employees by branch. Based on this comparision, we found
                     that the employees in the Office of the Director and the
                     Budget and Human Resouces Branches, on average, received
                     more cash and time off awards, and that the award amounts
                     were generally greater than the employees in other branches
                     received. In contrast, employees in the Library and
                     Administrative Services Branch, on average, received fewer


                                             30
                                  cash and time off awards, and the cash awards were
                                  generally less than in the other branches. As previously
                                  discussed on page 17, we also observed that the Library and
                                  Administrative Services and Facilities and Property Branches
                                  had greater number of nomination forms that were not
                                  processed. Although, the Security Branch had the most
                                  awards per employee, the Security Branch had more
                                  premium awards per employee than any of the other
                                  branches. The following tables provide statistical summary
                                  information.

                                                     Award Type
                                                                                                                       Average
                                                                             Gift         Total      Total            Award per
                 Branch               Cash      Time Off          Premium    Card         Award    Recipient          Recipient
        Acquisitions Management        5           4                 0        2            11          7                1.57
        Budget                             5         6               0            4        15            4              3.75
        Facilities and Property           14         0               5            2        21           11              1.91
        Finance                           17         6               1            1        25           15              1.67
        Human Resources                   50         17              9            2        78           30              2.60
        Library and
                                          23         9               3            4        39           22              1.77
        Administrative Services
        Office of the Director             3         2               2            0         7            4              1.75
        Security                          12         6              17            1        36            9              4.00
        Total                             129        50             37        16          232           102             2.27




                                                            Awards nominated by Nomination Forms

                                  Number of                                           Approved     Nominations           Awarded
                   Number of      Nominated                                            but not         not               without
      Branch       Employees       Awards        Approved           Disapproved       Awarded       Processed           Nomination
Acquisitions
                       8             18         11        61.1%     6*    33.3%       0     0.0%    1          5.6%         0
Management
Budget                 5             10         10    100.0%        0       0.0%      0     0.0%    0          0.0%         5
Facilities and
                       15            25         17        68.0%     2       8.0%      1     4.0%    5         20.0%         5
Property
Finance                19            21         18        85.7%     0       0.0%      1     4.8%    2          9.5%         8
Human
                       32            40         32        80.0%     5*    12.5%       2     5.0%    1          2.5%        46
Resources
Library and
Administrative         25            39         32        82.1%     0       0.0%      1     2.6%    6         15.4%         7
Services
Office of the
                       4              6         6     100.0%        0       0.0%      0     0.0%    0          0.0%         1
Director
Security               11            26         25        96.2%     1       3.8%      0     0.0%    0          0.0%        11


        * Acquisitions Management Branch and Human Resources Branch each had
        nominations that were not approved. One nomination from Acquisitions



                                                                   31
Management Branch was a group award for five employees and one nomination
from Human Resources Branch was a group award for four employees.

Cash Awards



                                                                     Branch’s
                                          Branch’s     Number of    Percent of     Branch’s
                          Cash Award     Percent of    Cash Award   Cash Award    Percent of
         Branch            Amount       Cash Awards    Recipients   Recipients    Employees
Acquisitions
                             5,600              5.32       4               4.76          6.72
Management
Budget                       6,350              6.03       3               3.57          4.20
Facilities and Property     14,000             13.29      10              11.90         12.61
Finance                     10,500              9.97      12              14.29         15.97
Human Resources             38,076             36.15      27              32.14         26.89
Library and
                            14,600             13.86      18              21.43         21.01
Administrative Services
Office of the Director       6,500              6.17       2               2.38          3.36
Security                     9,700              9.21       8               9.52          9.24
Total                       105,326           100.00      84             100.00        100.00


Time Off Awards


                                                                     Branch’s
                                          Branch’s     Number of    Percent of
                                         Percent of     Time Off     Time Off      Branch’s
                           Time Off       Time Off       Award        Award       Percent of
         Branch           Award Hours      Awards      Recipients   Recipients    Employees
Acquisitions
                              41                8.67       4               9.52          6.72
Management
Budget                        48               10.15       3               7.14          4.20
Facilities and Property       0                 0.00       0               0.00         12.61
Finance                       48               10.15      6               14.29         15.97
Human Resources              168               35.52      14              33.33         26.89
Library and
                              80               16.91       8              19.05         21.01
Administrative Services
Office of the Director        40                8.46       1               2.38          3.36
Security                      48               10.15      6               14.29          9.24
Total                        473              100.00      42             100.00        100.00




                                              32
Premium Awards


                                                                  Branch’s
                                       Branch’s     Number of    Percent of
                                      Percent of     Premium      Premium       Branch’s
                          Premium     Premium         Award        Award       Percent of
        Branch             Awards       Awards      Recipients   Recipients    Employees
Acquisitions
                             0               0.00       0               0.00          6.72
Management
Budget                       0               0.00       0               0.00          4.20
Facilities and Property      5              13.51       4              15.38         12.61
Finance                      1               2.70       1               3.85         15.97
Human Resources              9              24.32       8              30.77         26.89
Library and
                             3               8.11       3              11.54         21.01
Administrative Services
Office of the Director       2               5.41       2               7.69          3.36
Security                     17             45.95       8              30.77          9.24
Total                        37            100.00      26             100.00        100.00

Gift Card Awards


                                                                  Branch’s
                                       Branch’s     Number of    Percent of
                                      Percent of     Gift Card    Gift Card     Branch’s
                          Gift Card   Gift Card       Award        Award       Percent of
        Branch             Awards       Awards      Recipients   Recipients    Employees
Acquisitions
                             2              12.50       1               7.14          6.72
Management
Budget                       4              25.00       3              21.43          4.20
Facilities and Property      2              12.50       2              14.29         12.61
Finance                      1               6.25       1               7.14         15.97
Human Resources              2              12.50       2              14.29         26.89
Library and
                             4              25.00       4              28.57         21.01
Administrative Services
Office of the Director       0               0.00       0               0.00          3.36
Security                     1               6.25       1               7.14          9.24
Total                        16            100.00      14             100.00        100.00




                                           33
Distribution of Awards by Employee Category



                                                            Amount     Time    Hours of   Premium
                           Awards       Award       Cash    of Cash     Off    Time Off   and Gift
Category      Employees   Received    Recipients   Awards   Awards    Awards    Awards     Cards
Bargaining
              23   19%     34   15%   23    23%      19      $8,050     12       89          3
Unit
Non-
Bargaining    72   60%    150   65%   60    59%      76     $60,076     33       312        41
Unit
Supervisors   15   13%     34   15%   12    12%     22      $21,150     5        72          7
Branch
               9    8%     14   6%     7     7%      12     $16,050     0         0          2
Chief




                                             34
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board
Division of Administration


Memorandum
TO:            David Berry
               Inspector General

FROM:          Jennifer Abruzzo
               Deputy General Counsel

DATE:          December 30, 2013

SUBJECT:    Response to Draft Report “Division of Administration Pilot Employee Recognition
            Program (OIG-AMR-71)
__________________________________________________________________________

        This memorandum is in response to the Office of Inspector General’s (OIG’s) December 3, 2013
audit, entitled Draft Report “Division of Administration Pilot Employee Recognition Program (OIG-
AMR-71). The Office of General Counsel (OGC) appreciates the OIG’s efforts in reviewing this pilot
program.

        Below are specific responses to each of the OIG’s recommendations:

OIG Recommendation 1: We recommend that the OGC develop a protocol for documenting the
receipt, consideration, and approval of administration policy decisions.

        Response: It is expected that the selection of the new Director of Administration will ensure that
        administrative policy decisions are effectuated in an appropriate and accountable manner. We
        are reviewing different protocols from several regulatory agencies to determine an optimum and
        efficient processes. Our timeline for completion of the review is January 30, 2014. We will then
        compare those results to our existing processes and determine the most feasible and accountable
        ones to undertake.

OIG Recommendation 2: We recommend that the Office of Human Resources follow the guidance
provided by OPM in taking corrective action, if necessary, regarding the unauthorized rating system.

        Response: On November 18th, the Office of Human Resources (OHR) consulted with the Office of
        Personal Management (OPM) and was advised that a corrective action would be needed if there
        was an adverse action, i.e. removal or performance improvement plan (PIP) executed on a NLRB
        employee using the Division of Administration (DOA) Pilot Performance Management System.
        We then reviewed our records and found that, during the existence of the pilot, one employee was
        in the process of receiving a PIP, but the plan was rescinded. There were no other adverse
        actions reported.
       OPM further advised that it is within the Agency’s discretion to maintain or undo the incentive
       awards granted during that period of time. We have decided not to retract those awards.

OIG Recommendation 3: We recommend that DOA’s Performance Management Official be an official
of the Office of General Counsel

       Response: Consistent with other divisions managed by the Office of the General Counsel (OGC),
       the performance management official for DOA will be from the OGC.

       Further, with regard to overall performance management, we are pleased to note that OHR has
       dedicated a newly-hired Human Resources Specialist (Performance Management) to manage the
       Agency’s Performance Management System and Program. As a result, OHR is revising various
       program policies and processes related to performance management. These include: updating the
       Employee Recognition Program; establishing a new Performance Management cycle and a new
       Performance Appraisal form; providing additional guidance during monthly HR Conference calls
       with field Office Managers and Assistant Office Managers on a variety of HR topics; and
       developing Standard Operating Procedures (SOPs). This Performance Management Specialist
       reports to the Human Resources Director, who in turn reports to the Director of Administration,
       who directly reports to an Official of the OGC on related decision-making matters. Additionally,
       OHR has ongoing communications with OPM Performance Management Officials to make certain
       that regulatory requirements are satisfied, thus equipping OHR to independently execute the
       Agency’s Performance Management System effectively.

OIG Recommendation 4: We recommend that the Office of Human Resources review its records and
ensure that all employees have a properly executed performance plan.

       Response: OHR is developing tools and resources to ensure that all NLRB employees have
       appropriate Performance Plans in place. Additionally, OHR is in the process of developing
       tutorials for the HR management team, as well as managers throughout the Agency, on the
       Agency’s Performance Management Plans, with regulatory guidelines to follow. We anticipate
       offering the first training in March 2014.

OIG Recommendation 5: We recommend that the Office of Human Resources establish criteria for
when appropriated funds may be used for award ceremonies and that the criteria include a means to
determine the amount of funds that may be used.

       Response: OHR will issue a separate memorandum regarding this issue after consultation with
       the Chief Financial Officer. The expected issuance date is February 2014.

        The General Counsel’s Office, along with the Division of Administration and its Office of Human
Resources, appreciate your efforts and the work you performed to bring these important issues to our
attention. We remain committed to making changes as necessary or appropriate to ensure a properly
controlled performance management administrative environment.

cc:    Ventris Gibson, Director, Division of Administration
       Angela Wilson, Director, Office of Human Resources
